V
Certification of Word Count
No.
In the

Supreme Court of the United States
Michael A. Deem, Petitioner,
v.
John P. Colangelo,
Justice of the Supreme Court,
County of Westchester
SUPPLEMENTAL BRIEF
As required by Supreme Court Rule 33.1(h), I certify that the
document contains 674 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on 11/14/2019
Rod uukky
,/curry & Taylor LLC
1726 Nevada Ave NE
St. Petersburg, FL 33703
(202) 350-9073

